                                       -
                                                                    ir


                                                            L   March 21, 1991


             On March 21, 1991, I talked to DH-~             Division Director,
             Division of                                       and ~r.-
                     I showed them a copy of the 4                       elease
          -listed         Dr
                            P
             explained the we
                                      NSF address as the
                                  received a copy with a
             was a possible conflict of interest and the
                                                           contract address. I
                                                           complaint that there
                                                           OIG wanted to ensure
             that the publishing work was not being done   on NSF time and with
             NSF resources.
                                and Dr.          insured me that no editing work
--   --   w Both Dr.-
            asbang         n N S F t - i m e -o ~ h_ _NS            __-~r,-
                                                       ~~-r_esoxr~_e_s_,
                                                           t
            added that all editinq is done at his home and he receives no
                                                                                   _   -- -




           I am satisfied that this case needs no further action and am
           closing the file.


                                           ~ W a Agent
                                                    l
                                           Investigation Unit
